No. 20-315
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JOSE SANTOS SANCHEZ, ET AL, PETITIONERS
v.
CHAD WOLF ACTING SECRETARY OF
HOMELAND SECURITY, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS, via e-mail and first-class mail, postage prepaid, this
9th day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,198 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 9, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0315
SANCHEZ, JOSE S., ET AL.
CHAD WOLF, ACTING SEC. OF HOMELAND
SECURITY, ET AL.

JAIME WINTHUYSEN APARISI
8630 FENTON STREET
SUITE 932
SILVER SPRING, MD 20910
301-562-1416
JAIME@APARISI.COM

